   February 6, 2004




Financial Management

DoD Payroll Withholding Data For
FY 2003
(D-2004-051)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CSRS                  Civil Service Retirement System
DCPS                  Defense Civilian Pay System
DFAS                  Defense Finance and Accounting Service
FEGLI                 Federal Employees Group Life Insurance
FERS                  Federal Employees Retirement System
OIG DoD               Office of the Inspector General Department of Defense
OPF                   Official Personnel File
OPM                   Office of Personnel Management
RITS                  Retirement Insurance Transfer System
TSP                   Thrift Savings Plan
DISTRIBUTION:

OFFICE OF PERSONNEL MANAGEMENT
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, DEFENSE COMMISSARY AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEFENSE LOGISTICS AGENCY
DIRECTOR, DEFENSE SECURITY SERVICE
DIRECTOR, NATIONAL IMAGERY AND MAPPING AGENCY
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
DIRECTOR, DOD EDUCATION ACTIVITY
DIRECTOR, CIVILIAN PERSONNEL MANAGEMENT SERVICES
          Office of the Inspector General of the Department of Defense
Report No. D-2004-051                                                     February 6, 2004
   (Project No. D2003FH-0059)

                  DoD Payroll Withholding Data for FY 2003

                                 Executive Summary

Who Should Read This Report and Why? This report is intended for use by three
officials at the Office of Personnel Management: the Inspector General, the Chief
Financial Officer, and the Associate Director for Retirement and Insurance. The report
discusses the results of agreed-upon audit procedures developed by the Office of
Personnel Management.

Background. Office of Management and Budget Bulletin No.01-02, October 16, 2000,
requires all Federal agencies to review their civilian employee retirement, health benefits,
and life insurance payroll withholdings. The Inspector General, Chief Financial Officer,
and Associate Director for Retirement and Insurance of the Office of Personnel
Management developed specific agreed-upon procedures to review civilian employees’
withholdings and are, therefore, responsible for the adequacy of the agreed-upon
procedures. We applied the agreed-upon procedures in accordance with the standards
established by the American Institute of Certified Public Accountants.

Results. The payroll withholding amounts and total payroll amounts that the Defense
Finance and Accounting Service reported to the Office of Personnel Management did not
exactly match the supporting detail Defense Finance and Accounting Service provided
for our analysis. This is a repeat issue from prior Inspector General of the Department of
Defense audit reports. The Defense Finance and Accounting Service is developing
computer storage to resolve the issue. For details of the analysis, see the Independent
Auditor’s Report and Attachment.

Withholding Data Discrepancies. We selected a sample of 236 employees and
compared their payroll withholdings to authorizations in their official personnel files.
The comparison revealed 34 discrepancies (percentages apply to the sample of 236 not to
the whole populations):

           •   8 gross pay discrepancies (3.39 percent),

           •   9 life insurance withholding discrepancies (3.81 percent),

           •   4 health benefits withholding discrepancies (1.69 percent),

           •   10 Thrift Savings Plan Discrepancies (4.24 percent), and

           •   3 Federal Employees Retirement System withholding
               discrepancies (1.27 percent).
Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, and on the employee headcount of DoD. Therefore, we are not
expressing an opinion. However, we performed additional procedures based on generally
accepted government auditing standards that we considered necessary to report to the
Office of Personnel Management.

We compared Form 592s, used for Payroll Certification and Summary, with the total
payroll amounts in the payroll files. We found significant discrepancies (see the
Independent Auditors Report). DFAS personnel explained that errors occurred when the
Form 592s were downloaded twice, causing the computer to double the amounts in the
reports. In addition, DFAS personnel stated that the reports were not reconciled to
payroll before being reported to DFAS Cleveland and before being presented to the
Director, Civilian Payroll Operations for signature. Defense Finance and Accounting
Service should reconcile the Form 592s to payroll prior to certifying that the payroll is
correct and proper for payment, and should download the Form 592s only once for
payroll-certifying officer’s signature.

In addition, the Defense Finance and Accounting Service and supporting DoD
organizations could improve management controls over the accuracy of the payroll
amounts withheld and remitted to the Office of Personnel Management. The withholding
amounts we calculated while performing the agreed-upon procedures differed from the
withholding amounts presented in Defense Finance and Accounting Service reports. The
differences for retirement and life insurance were less than the reporting threshold criteria
of one percent established in the agreed-upon procedures. However, some of the
differences for health withholding exceeded the reporting threshold criteria. Defense
Finance and Accounting Service personnel said that the differences for health benefits
withholding were due to payments for indebtedness for health benefits that they did not
include in the data sent to us.

Management Comments. Defense Finance and Accounting Service partially concurred
that the Form 592s should be reconciled to payroll prior to certifying that the payroll is
correct and proper for payment, and suggested that a phrase in the recommendation about
fund availability be deleted because fund availability is the responsibility of the resource
managers. The Defense Finance and Accounting Service comments are responsive. We
revised our recommendation by deleting a phrase about fund availability. Defense
Finance and Accounting Service concurred that the Form 592s should be downloaded
only once for the payroll-certifying officer’s signature. The Defense Finance and
Accounting Service comments are responsive. Therefore, we require no additional
comments. See the Overview for a discussion of management comments and the
Management Comments section for the complete text of the comments.




                                             ii
Table of Contents
Executive Summary                                                   i

Independent Auditor’s Report
     Overview                                                      1
     Agreed-Upon Procedures and Associated Findings (Attachment)   6

Appendixes
     A. Scope and Methodology                                      16
          Management Control Program Review                        17
     B. Prior Coverage                                             18
     C. Report Distribution                                        19

Management Comments
     Defense Finance and Accounting Service                        21
                   Independent Auditor’s Report

                                Overview

We have performed the employee payroll and withholding data procedures agreed
upon by Officials in the Office of Personnel Management (OPM), the Inspector
General, the Chief Financial Officer, and the Associate Director for Retirement
and Insurance. The sufficiency of these procedures is solely the responsibility of
the three officials agreeing to them. Therefore, we make no representation
regarding the sufficiency of the procedures described in the attachment. We
applied the procedures to the employee withholdings and employer contributions
reported on the Report of Withholdings and Contributions for Health Benefits,
Life Insurance, and Retirement for the payroll periods ended October 5, 2002;
February 22, 2003; March 8, 2003; and March 22, 2003. We also applied the
agreed-upon procedures to the Supplemental Semiannual Headcount Report as of
March 8, 2003. We applied these agreed-upon procedures in accordance with
standards established by the American Institute of Certified Public Accountants.

Comparison of Amounts Withheld and Remittance to OPM. The Defense
Finance and Accounting Service (DFAS) and supporting DoD organizations
could improve management controls over the accuracy of the payroll amounts
withheld and remitted to OPM. The amounts determined by performing the
agreed-upon procedures differed from the amounts presented in the DFAS
reports, and the differences were greater than the threshold criteria prescribed in
the agreed-upon procedures.

Payroll File Totals. We totaled the payroll files that included about
621,677 employees within a given pay period, with a total gross payroll of about
$5.3 billion for the 4 pay periods we reviewed. The payroll withholding amounts
DFAS reported to OPM exceeded the footings (totals) of the DFAS database by
$2.243 million, for an overall error rate of 0.650 percent. This is not an
improvement from FY 2002, when the payroll amounts DFAS reported to OPM
exceeded the footings of the DFAS database by $0.533 million, for an overall
error rate of 0.159 percent. The differences found this year are greater than last
year, although not material with respect to the DoD financial statements.
However, considering the sensitivity of payroll, the differences, which range as
high as 3.11 percent for health withholdings on one payroll file for one pay
period, represent a material management control weakness in the preparation and
reporting of DoD payroll. Management should address this material weakness.

The differences for retirement and life insurance were less than the reporting
threshold criteria of one percent established in the agreed-upon procedures.
However, 9 of the discrepancies (out of 16 comparisons) for health withholding
exceeded the reporting threshold criteria. DFAS personnel stated that the
differences for health, which were 1.64 percent over all, were due to payments for
indebtedness for health benefits not included in the data sent for our analysis.
DFAS maintains a database that can be retroactively adjusted, and the adjustments
may create discrepancies between reported and adjusted amounts.




                                      1
Payroll Certification and Summary. The total of the gross payroll amounts in
the payroll files was $5.303 billion. However, the total of the amounts on the
Form 592s originally provided by DFAS, and used for Payroll Certification and
Summary, was $5.691 billion. Comparison of the four payroll files for four pay
periods showed that two of the Form 592s exceeded payroll file 500 (Pensacola)
by $0.189 billion and $0.281 billion (approximately 100 percent each); six of the
Form 592s exceeded the payroll file by a multiple of $100,000 and these
accounted for a total of $900,000; three of the Form 592s were less than the
payroll files by a total of $4.132 million; and five of the Form 592s matched the
payroll files exactly. DFAS personnel explained that the 100 percent differences
were due to the Form 592s being downloaded twice for the Director’s signature.
DFAS personnel stated that DFAS Pensacola did not complete reconciling these
Form 592s before reporting the amounts to DFAS Cleveland, and before the
Payroll Certifying Officer signed them. DFAS personnel also stated that the
6 differences of multiples of $100,000 were due to data truncation in the payroll
file data provided for our analysis. DFAS personnel added that the other three
differences should have been supplemental Form 592s, and this accounted for the
$4.132 million by which Form 592s differed from payroll files. DFAS provided
corrected Form 592s for the differences of 100 percent totaling $0.47 billion.

Comparison of Payroll System Data to Official Personnel Files. We compared
a sample of 236 employees from the 4 payroll data files to documentary support
for amounts paid and withheld as shown in Official Personnel Files (OPFs). This
comparison resulted in 34 discrepancies (percentages apply to the sample of 236,
not the whole population) between payroll system data and OPFs:

           •   8 gross pay discrepancies (3.39%),
           •   9 life insurance withholding discrepancies (3.81%),
           •   4 health insurance withholding discrepancies (1.69%),
           •   10 Thrift Savings Plan (TSP) discrepancies (4.24%), and
           •   3 Federal Employees Retirement System withholding
               discrepancies (1.27%).

Acceptance of Personnel Documents from Databases. During our review of
the 236 employee sample files, we identified 45 OPFs with potential
discrepancies. We provided the Army, Navy, Air Force, and Defense agencies
with the names, social security numbers, and the nature of the potential
discrepancies for each of the 45 files. The Army, Navy, Air Force, and Defense
agencies later provided us with forms printed from personnel file databases that
explained differences between data in 40 of the OPFs and data in the Defense
Civilian Pay System (DCPS). We accepted personnel documents generated from
personnel file databases that completely explained differences between data in
24 of the OPFs and data in the DCPS. However, data in sixteen of the 40 OPFs
still had unresolved inconsistencies with data in the DCPS. After our initial
review, we relied on the documents printed by the Military Departments and
Defense agencies for our use. Therefore, we reclassified 24 OPFs with explained
inconsistencies to “samples that were corrected at a later date.” Of the 24 files we
reclassified as correct, 11 were from the Air Force, 10 were from the Army,
2 were from Defense agencies, and 1 was from the Navy. The Army, Navy,


                                     2
Air Force, and Defense agencies were unable to clarify 16 out of 40 OPFs with
potential discrepancies despite additional documentation. The Army did not
provide additional data needed for five other OPFs. The 21 OPFs with
discrepancies remaining are included in the total of 34 differences discussed in the
paragraph “Comparison of Payroll System Data to Official Personnel Files” on
page 2.

Causes of Discrepancies. Inconsistencies between the pay indicated on the
SF-50 in the OPF and data in the pay system in 8 of the sampled files caused
16 of the errors. Inconsistencies between TSP-1 withholding in the pay system
and amounts indicated on TSP-1 forms account for another six discrepancies.
Another five errors were caused by life insurance calculation errors. In two
instances waivers of life insurance were not documented in the personnel files.
Two other errors were non-monetary—personnel staff failed to sign forms for
TSP and health withholding. Two errors were caused by inconsistency between
health elections in the OPFs and health deduction data in the pay system. Another
error was caused by lack of support in the OPF (no health election) for health
deduction data in the pay system. We discuss the causes of the discrepancies in
the attachment to this report.

Calculations Required. The agreed-upon procedures require us to compare the
headcount of employees using payroll data files with the headcount in the
Supplemental Semiannual Headcount Report. Our headcounts of employees
using payroll data files differed from the Supplemental Semiannual Headcount
Reports by less than 1 percent— within the 2 percent reporting threshold allowed
in the agreed-upon procedures.

Life Insurance. Our recalculation of basic life insurance from the payroll data
files supported the amounts reported to OPM. The calculated amount of
$21.401 million was $0.436 million different from the $20.965 million DFAS
reported to OPM. The difference between the amount we calculated and the
amount DFAS reported to OPM (2 percent) did not exceed the 5 percent reporting
threshold.

Health Insurance. Our recalculations of health insurance withholdings from the
payroll data files supported the amounts DFAS reported to OPM. The amounts
we calculated from the payroll data files varied from the amounts DFAS reported
to OPM by percentages between .06 and 1.2 percent in total, including employee
withholding and agency contributions for each payroll file. This was much lower
than the agreed-upon procedures reporting threshold of 5 percent for health
insurance variances.

Comparison of Amounts Transferred. We compared DFAS and OPM
documentation for the total dollar amounts transferred for the payroll periods
sampled. We found that all the amounts reported by the DCPS were the same as
the amounts reported by the OPM Retirement and Insurance Transfer System
(RITS). This is an improvement from last year, when not all of the amounts
reported by the DCPS were the same as the amounts in the RITS system.

We performed the agreed-upon procedures specifically pertaining to payroll. We
were not engaged to, and did not, perform an audit with the objective of


                                     3
    expressing an opinion on the withholdings and contributions for health benefits,
    life insurance, retirement, and on the employee headcount of DoD. Therefore, we
    are not expressing an opinion. However, we performed additional procedures
    based on generally accepted government auditing standards that we determined
    necessary to evaluate the integrity of the data.

    This report is intended solely for use by the Inspector General, the Chief Financial
    Officer, and the Associate Director for Retirement and Insurance, OPM. This
    report is prepared in the format directed by Office of Management and Budget
    Bulletin No. 01-02, October 16, 2000, to address the results of the agreed-upon
    procedures. Accordingly, this report should not be used by those who have not
    agreed to the procedures and have not taken responsibility for the sufficiency of
    the procedures for their purposes. In FY2002, OMB guidance added an
    additional requirement that we obtain management comments on this report. The
    payroll files we analyzed are identified as 100 (Denver), 500 (Pensacola),
    600 (Charleston), and 800 (Denver). Appendix A discusses the scope and
    methodology used in accomplishing the agreed-upon procedures.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 1. by deleting the phrase “that sufficient funds are available to
    cover the gross appropriation charge.”

    We recommend that the Director, Defense Finance and Accounting Service:

          1. Reconcile amounts reported on Form 592s, Payroll Certification
    and Summary, to total payroll before certifying that the payroll is correct
    and proper for payment.

    Management Comments. The Director, Military and Civilian Pay Services
    partially concurred. Defense Finance and Accounting Service concurred with
    reconciling the total payroll to the amounts reported on the Form 592s, Payroll
    Certification and Summary, before certifying that the payroll is correct and proper
    for payment. Defense Finance and Accounting Service is standardizing
    procedures to comply. However, Defense Finance and Accounting Service
    nonconcurred with the statement “that sufficient funds are available to cover the
    gross appropriation charge.” The DoD Financial Management Regulation
    volume 5, chapter 33, clearly states that the payroll certifying officer is not
    required to certify that sufficient funds are available to cover the gross
    appropriation charges as reflected on the Payroll for Personal Services – Payroll
    Certification and Summary.

    Audit Response. The management comments are responsive. We modified the
    recommendation by removing the phrase “that sufficient funds are available to
    cover the gross appropriation charge.”




                                         4
        2. Download Form 592s only once for the signature of the payroll
certifying officer.

Management Comments. The Director, Military and Civilian Pay Services
concurred. DFAS is updating procedures to prevent recurrence.




                                  5
 Agreed-Upon Procedures and Associated Findings
This attachment contains the OPM agreed-upon procedures, the auditor actions,
and the results of accomplishing those procedures.

Procedure. Obtain the Agency Payroll Office’s March Semiannual Headcount
Report submitted to OPM and a summary of Retirement Insurance Transfer
System (RITS) submissions for the current fiscal year. For retirement, health
benefits, and life insurance, select any three RITS submissions for the current
fiscal year, one of which coincides with the March Semiannual Headcount
Report. Obtain Payroll information for the periods covered by the RITS
submissions selected.

1. Compare RITS submissions data with payroll information by performing the
following procedures:

1.a. Recalculate the mathematical accuracy of the payroll information. For cross-
servicing agencies, if the internal controls are the same for all agencies serviced, it
is only necessary to perform this procedure for one agency.

Auditor Action. DFAS extracted all four of the payroll data files from the
payroll history database and sent them to us by compact disc from its Pensacola,
Florida, operating location. We totaled the 16 payroll data files (4 payroll files for
4 pay periods) with about $5.3 billion in total pay and about 621,677 employees
in each payroll period. We totaled the life insurance withholdings, health
insurance withholdings, CSRS withholdings, and FERS withholdings. The total
withholding amounts we calculated using data DFAS provided were $47.1 million
for life insurance, $142.6 million for health insurance, $132.1 million for CSRS,
and $23.1 million for FERS.

Procedure. 1.b. Recalculate the mathematical accuracy of each RITS
submission for the payroll information selected in step 1.a.

Auditor Action. We recalculated the mathematical accuracy of each RITS
submission for the payroll information for the payroll periods ended October 5,
2002; February 22, 2003; March 8, 2003; and March 22, 2003. OPM provided
copies of the RITS submissions that we used for recalculation of the mathematical
accuracy.

Procedure. 1.c. Compare the employee withholding information shown on the
payroll information obtained in step 1.a. for retirement, health benefits, and life
insurance (as adjusted for reconciling items) to the related amounts shown on the
RITS submission for the corresponding period.

Auditor Action. We compared the employee withholding totals to the related
amounts shown on the RITS submission for retirement, health benefits, and life
insurance, as evidenced by a Form 2812 OPM produced from the RITS database.
The payroll data file totals for life insurance and Federal Employees Retirement
System (FERS) were nearly equal to the related amounts shown on the RITS
submission for the corresponding period (only .01 percent different). The payroll
data file totals for Civil Service Retirement System (CSRS) were also nearly


                                      6                                   Attachment
equal to the related amounts shown on the RITS submission for the corresponding
period (only .07 percent different). The payroll data file totals for health benefits
did not equal the amounts reported to OPM in the RITS. The health benefit
amounts reported in the RITS ($144,904,736) exceeded the payroll data file totals
for health benefits ($142,568,558) by $2,336,178, or 1.64 percent. The total of
differences, percentage of differences, and high/low percentage of differences of
individual payroll data files are shown in Table 1.

       Table 1. Differences Between Payroll Data Files and RITS Data Submissions
                    Reported to
     Type of       OPM in RITS         Total of          Percent
  Withholding        (millions)      Differences        Difference   High/Low Percent
 Life                $ 47,112,943              3,285       0.01          0.08/0.00
 Health               144,904,736        -2,336,178        1.64          3.11/0.64
 CSRS                131,972,830              88,098       0.07          0.10/0.05
 FERS                  23,092,987              2,144       0.01          0.11/0.00



DFAS provided us with an electronic extract from its database. The differences
found this year are greater than last year, but still are not material with respect to
the DoD financial statements. However, the differences represent a significant
management control weakness, considering the sensitivity of payroll. The total
percent difference of 1.64 percent for health exceeded the reporting threshold of
one percent. Nine individual comparisons for payroll files, by pay period, for
health benefits were higher than the reporting threshold, one as high as
3.11 percent. DFAS explained that the DCPS data sent by disc did not include
payments for indebtedness for health benefits.

Procedure. 2.a. Randomly select a total of 25 individuals who were on the
payroll system for all 3 of the RITS submissions selected and meet all the
following criteria:

           •   covered by the CSRS or the FERS,
           •   enrolled in the Federal Employees Health Benefits Program,

           •   covered by Basic Life Insurance, and

           •   covered by at least one Federal Employees Group Life Insurance
               (FEGLI) optional coverage (Option A, B, or C).

Auditor Action. We randomly selected 25 individuals from each of 4 payroll
data files in DoD with more than 30,000 employees who were enrolled in Federal
retirement, health benefits, and life insurance programs.

Procedure. 2.b. Obtain the following documents, either in electronic or hard
copy format, from the OPF for each individual selected in step 2.a. Hard copies
can be originals or certified copies.

           •   all Notifications of Personnel Actions (SF-50) covering the pay
               periods in the RITS submissions chosen,


                                       7
           •   the Health Benefit Registration Form (SF-2809) covering the pay
               periods in the RITS submissions chosen (note: a new SF-2809 is
               needed only if an employee is changing health benefit plans;
               therefore, the form could be many years old), and

           •   the Life Insurance Election Form (SF-2817) covering the pay
               periods in the RITS submission chosen (note: a new SF-2817 is
               needed only if an employee is changing life insurance coverage;
               therefore, the form could be many years old).

Auditor Action. We obtained Notifications of Personnel Actions (SF-50s),
Health Benefit Registration Forms (SF-2809s), and Life Insurance Election Forms
(SF-2817s) covering the pay periods in the RITS submission chosen.

Procedure. 2.c. Via the agency personnel office, request a report from
Employee Express for any health benefit transactions in that system for the
individuals selected in step 2.a. Compare the date of transaction with the date on
the certified copy of the SF-2809 requested in step 2.b. Confirm that the health
benefit information to be used in step 2.g. covers the pay periods in the RITS
submissions chosen.

Auditor Action. We requested copies from the agency personnel office of any
automated health benefits elections (SF-2809s) that could explain differences
between OPFs and DCPS. The Army provided copies of personnel documents
from the Army Benefits Center, and we directly accessed the Personnel
Automated Records Information System for Air Force personnel documents.

Procedure. 2.d. Compare the base salary used for payroll purposes and upon
which withholdings and contributions generally are based with the base salary
reflected on the employee’s SF-50. Report any differences.

Auditor Action. We compared the base salary used for payroll purposes with the
base salary reflected on the employees’ SF-50s. Out of 236 files we sampled, the
SF-50s of 8 employees did not support the base salaries used for payroll purposes.

Procedure. 2.e. For Retirement, compare the plan code on the employees’
SF-50s to the plan codes used in the payroll system. Report any differences.

Auditor Action. We compared the plan codes on the employees’ SF-50s to the
plan codes used in the payroll system. We did not note any differences between
the retirement plan codes on the employees’ SF-50s and the retirement plan codes
used in the payroll system.

Procedure. 2.f. Calculate the retirement amount to be withheld and contributed
for the plan code from the employees’ SF-50s, based upon the official
withholding and contribution rates required by law. Compare the actual amounts
withheld and contributed. Report any differences.

Auditor Action. We calculated the retirement amount to be withheld and
contributed for the plan codes from the employees’ SF-50s, based on the official
withholding and contribution rates required. We compared the retirement


                                     8
amounts we calculated to actual amounts withheld and contributed. We found
three differences between the FERS retirement amounts withheld, and the
amounts we determined should have been withheld. Two FERS differences
($.47 and $.06) were due to the pay system not being changed for updated SF-50s.
The other FERS error ($2.38) was due to a missing SF-50, so the OPF did not
support the amount of the withholding.

Procedure. 2.g. For Health Benefits, compare the employee withholdings and
agency contributions with the official subscription rates issued by OPM for the
plan and option elected by the employees, as documented by Health Benefits
Registration Forms (SF-2809) in the employees’ OPFs or Employee Express.
Report any differences.

Auditor Action. We obtained the official subscription rates for Health Benefits
issued by OPM for all plans and options available to Federal employees. We
compared the employee withholdings and agency contributions with the official
subscription rates issued by OPM for the plans and options elected by the
employees, as documented by Health Benefits Registration Forms (SF-2809s) in
the employees’ OPFs. We found four health errors. For one of the errors, the
health plan code on the SF-2809 in the OPF did not match with the health plan
code in DCPS. The amount in error was $13.55 per pay period. Another error
($94.83) occurred because health benefit subscription payment was withheld;
however the employee’s OPF did not contain an SF-2809 electing a health plan.
The third health withholding error had a completed waiver of health benefits in
the OPF, but $94.83 was still being withheld in the DCPS. The final health error
was a personnel issue; the personnel office did not sign the health benefit election
form. This error was a non-monetary error. The four health errors were the result
of two missing documents, one communication error, and one personnel error.

Procedure. 2.h. For life insurance, confirm that Basic Life Insurance was
elected by the employee, as documented by a Life Insurance Election
Form (SF-2817), in his/her OPF. Report any differences.

Auditor Action. We reviewed evidence for Life Insurance election by reviewing
Life Insurance Election Forms (SF-2817s) and SF-50s. Two of the OPFs had
missing Life Insurance Election Forms. However, if a civilian employee in the
DoD does not waive life insurance or elect a life insurance option, they are
automatically treated as electing basic life insurance coverage. This treatment is
consistent with the U.S. Office of Personnel Management Federal Employees’
Group Life Insurance Program (FEGLI) Handbook as shown on the OPM
website. The Handbook states “As a Federal employee, you automatically have
Basic insurance (unless you are in a category of employees specifically excluded
by law or regulation), unless you waive it on the Life Insurance Election Form
(SF-2817).

Procedure. 2.i. Calculate the withholding and contribution amounts for basic
life insurance using the following:

For employee withholdings: Round the employee’s annual base salary to the
nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply



                                     9
by $0.155 (for Agency Payroll Offices with biweekly pay periods) or $0.3358 (for
Agency Payroll Offices with monthly pay periods).

For agency contributions: Divide the employee withholdings calculated above by
two.

Auditor Action. We calculated the withholding and contribution amounts for
basic life insurance by rounding the employee’s annual base salary to the nearest
thousand dollars and adding $2,000. For Federal Wage System employees we
added environmental differential to the base salary in determining wages eligible
for life insurance. Two of the sample items with ‘basic only’ elected had
calculation errors in basic life insurance. Both errors were caused by differences
in gross pay, which were communication errors. The amounts in error were
$0.16 and $1.24.
Procedure. 2.j. Also, for Life Insurance, compare optional coverage elected as
documented by an SF-2817 in the employee’s OPF with optional coverage
documented in the payroll system. Report any differences.

Auditor Action. We obtained SF-2817 documents directly from employees’
OPFs and electronic personnel data files. We obtained life insurance optional
coverage data from DCPS. We compared optional life insurance coverage elected
as documented on the SF-2817s with optional life insurance coverage as recorded
in the DCPS. We identified two instances where DCPS had not recorded optional
life insurance coverage for employees who had elected optional life insurance
coverage. This led to errors of $26.99 and $5.74. In both cases the payroll
system withheld for basic life insurance although the documents in the OPF
showed election of optional coverage.

Procedure. 2.k. Calculate the withholding amounts for optional life insurance
using the following:

           For Option A: Determine the employees’ age group using the age
           groups provided for Option A in the FEGLI Program Booklet. The
           withholding amount is the rate listed in the FEGLI Program Booklet
           for that age group. Compare to amount withheld. Report any
           differences.

           For Option B: Inspect the SF-2817 to determine the number of
           multiples chosen for Option B. Determine the employee’s age group
           using the age groups provided for Option B in the FEGLI Program
           Booklet. Round the employee’s annual rate of basic pay up to the next
           1,000, divide by 1,000, and multiply by the rate for the age group.
           Multiply this amount by the number of multiples chosen. Compare to
           amount withheld. Report any differences.

           For Option C: Inspect the SF-2817 to determine the number of
           multiples chosen for Option C. Determine the employee’s age group
           using the age groups provided for Option C in the FEGLI Program
           Booklet. Multiply the rate for the age group by the number of



                                    10
           multiples chosen. Compare to the amount withheld. Report any
           differences.

Auditor Action. We calculated the amounts for optional life insurance. In
addition to the errors noted under 2.h., 2.i., and 2.j., we identified three more
optional life insurance errors. These errors were for $0.31, $.35, and $1.82. The
error for $.35 was due to the improper inclusion of Sunday premium in FEGLI
pay base. The $1.82 error was due to life insurance calculation error and the
$.31 error was a systematic error (last hour in pay status not selected by
timekeeper to include environmental pay in the FEGLI pay base). In total we
identified nine life insurance errors in all categories.

Procedure. 3. Randomly select a total of 10 employees who have no health
benefits withholdings from the payroll information corresponding to the 3 RITS
submissions selected for testing.
Request SF-2809s covering the pay periods in the RITS submissions chosen,
either in electronic or hard copy format, from the selected employees’ OPFs.
Hard copies can be originals or certified copies. Via the agency personnel office,
request a report from Employee Express for any health benefit transactions in that
system for the individuals selected. Inspect the documentation to determine that
health benefit coverage was not elected. This can be determined in the following
ways:

           •   absence of an SF-2809 in the OPF and no election of coverage
               made through Employee Express,

           •   an SF-2809 in the OPF with Section E checked (indicating
               cancellation of coverage) and no later election of coverage through
               Employee Express, or

           •   cancellation of coverage through Employee Express and no later
               election of coverage with an SF-2809.

Report any exceptions.

Auditor Action. We randomly selected ten employees per payroll data file who
had no health benefit withholdings from the payroll information corresponding to
the RITS submissions selected for testing. We reviewed the OPFs and electronic
personnel databases for SF-2809s. We inspected the documentation to determine
if the employee elected health benefit coverage. We found no indication of
election of coverage either in OPFs or in electronic files for employees who had
no health benefit withholding.

Procedure. 4. Randomly select a total of ten employees who have no life
insurance withholdings from the payroll information corresponding to the three
RITS submissions selected for testing. Request the SF-2817s covering the pay
periods in the RITS submissions chosen, either in electronic or hard copy format,
from the selected employees’ OPFs. Hard copies can be originals or certified
copies. Inspect the SF-2817 to determine that the employee waived or canceled
Basic Life Insurance coverage. Report any exceptions.


                                    11
Auditor Action. We randomly selected ten employees per payroll data file who
had no life insurance withholdings according to the DCPS corresponding to the
three RITS submissions selected for testing. We requested, obtained, and
reviewed the SF-2817s covering the pay periods in the RITS submissions chosen.
We inspected the SF-2817s in all instances when the coverage was waived. We
did not note any exceptions.

Procedure. 5. Recalculate the headcount reflected on the Semiannual Headcount
Report selected for testing above, as follows:

5.a. Obtain existing payroll information supporting the selected Supplemental
Semiannual Headcount Report selected for testing above, as follows:

           •   Benefit category (see Semiannual Headcount Report),
           •   Dollar amount of withholdings and contributions,

           •   Number enrolled (deductions made/no deductions),

           •   Central personnel data file code, and

           •   Aggregate base salary.

5.b. Recalculate the Headcount reflected on the Semiannual Headcount Report.
If an electronic file is not available, a suggested method of recalculating the
headcount is as follows: (1) estimate the number of employees per payroll register
page by counting the employees listed on several pages, (2) count the number of
pages in the payroll register, and (3) multiply the number of employees per page
by the number of pages, or count (using a computer audit routine) the number of
employees on the payroll data file for the period.

5.c. Compare the results of payroll information from step 5.a. with the calculated
headcount from step 5.b. to information shown on the Semiannual Headcount
Report.

5.d. Report any differences (e.g., gross rather than net) greater than two percent
between the headcount reporting on the agency’s Semiannual Headcount Report
and payroll information from step 5.a. and the calculated headcount from step 5.b.

Auditor Action. We obtained the DFAS supplemental Semiannual Headcount
Reports (see Table 2) for the pay periods ended March 8, 2003, for Payroll
Offices 100, 500, and 600 and February 22, 2003, for Payroll Office 800. We
compared those headcount reports to the payroll data files from DFAS-Pensacola
for the same period.




                                    12
                   Table 2. Comparison of Employee Headcounts


                                      Employee
                                        Count        Employee
     Payroll          Report           DFAS          Headcount
    Data File         Date           Payroll Data    Report             Difference
                                        Files

      97380100        03/08/2003         160,783        160,783                0
      97380500        03/08/2003          91,351         91,352               (1)
      97380600        03/08/2003         152,734        152,734                0
      97380800        02/22/2003         216,809        215,972               837
       Totals                            621,677        620,841               836


The counts in the payroll data files differed from the headcount reports by
836 employees, which is under the reporting threshold of 2 percent.

Procedure. 6. Calculate employer and employee contributions for retirement,
health benefits, and life insurance.

6.a. Calculate retirement withholdings and contributions for the four pay periods
selected.

6.a.i. Multiply the CSRS and FERS payroll base by the withholding and
employer contribution rates required by law.

6.a.ii. Compare the calculated totals with related amounts shown on the RITS
submissions. Report any variances (e.g., gross rather than net) between the
calculated amounts and the amounts reported on the RITS submissions greater
than 5 percent of the amounts on the RITS submission.

Auditor Action. We calculated the total CSRS and FERS retirement employee
withholdings and employer contributions for the pay periods ended March 8,
2003, for the three payroll entities 100, 500, and 600; February 22, 2003, for the
one payroll entity 800. Employee withholding rates for CSRS and FERS were
7.00 percent and 0.8 percent respectively. Employer contribution rates for CSRS
and FERS were 7.0 percent and 10.7 percent respectively. The differences
between the calculated total of CSRS and FERS employee retirement
withholdings and employer contributions and the related amounts shown on the
RITS submission did not exceed the agreed upon threshold of 5 percent for any of
the 4 payroll data files. Differences for CSRS and FERS employee withholdings
varied between 0.09 percent and 0.14 percent; and 0.01 percent and 0.03 percent,
respectively, as shown in Table 3. Differences for CSRS and FERS employer
contributions varied between 0.00 percent to 0.01 percent, and 0.00 percent to
0.50 percent, respectively, as shown in Table 4.




                                    13
    Table 3. Comparison Between CSRS and FERS Employee Withholding As
                  Reported by DFAS and RITS Information

               RITS          CSRS per                     RITS FERS       FERS Per
          CSRS Calculated      DFAS                       Calculated        DFAS
  Data       Employee        Employee         Percent      Employee       Employee       Percent
  File      Withholding     Withholding      Difference   Withholding    Withholding     Difference
  100        7,284,818       7,294,146        -0.13%       1,146,991      1,147,133       -0.01%
  500        5,051,514       5,057,801         -012%        776,866        777,101        -0.03%
  600        9,194,654       9,202,678        -0.09%       1,496,132      1,496,040        0.01%
  800       11,367,395      11,383,197        -0.14%       1,559,474      1,559,468        0.00%
 Totals     32,898,382      32,937,822        -0.12%       4,979,463      4,979,741       -0.01%


 Table 4. Comparison Between CSRS and FERS Employer Contribution As
               Reported by DFAS and RITS Information
          RITS CSRS      CSRS Per                    RITS FERS      FERS Per
          Calculated     DFAS                        Calculated     DFAS
          Employer       Employer        Percent     Employer       Employer        Percent
  Data    Contribution   Contribution   Difference   Contribution   Contribution   Difference
  File
  100      7,649,455      7,649,516       0.00%      15,341,008     15,339,960       0.01%
  500      5,388,849      5,388,397       0.01%      10,390,580     10,390,582       0.00%
  600      9,673,549     9,673,956        0.00%      20,010,768     20,111,624      -0.50%
  800      12,038,543    12,037,788       0.01%      20,857,967     20,857,951       0.00%
 Totals    34,750,396    34,749,657       0.00%      66,600,324     66,700,117      -0.15%



Procedure. 6.b. Calculate employee withholdings and employer contributions
for health benefits for the three pay periods selected.

Auditor Action. We obtained the number of employees enrolled in each health
insurance plan for each payroll data file from data provided by DFAS as RITS
submissions. We obtained the official subscription rates for health benefits issued
by OPM for all plans and options available to Federal employees from the OPM
website. We extended and added totals and compared the results with the health
insurance withholdings and contribution amounts shown on the OPM Collection
and Deposit System Standard Form 2812. All of the Payroll Offices had
variances below the 5 percent reporting threshold.

Procedure. 6.c. Calculate the Basic Life Insurance employee withholdings and
employer contributions for the three pay periods selected.

Auditor Action. We totaled the amount of gross pay eligible for basic life
insurance for the employees in each payroll file. We divided this sum by 80 and
multiplied by 2,087 to determine annual gross earnings of employees electing
basic life insurance coverage. We used data from DCPS to obtain a count of the
number of employees electing basic life insurance for each payroll file. We
multiplied 2,000 times the number of employees electing basic life and added the
result to gross pay eligible for basic life insurance. We multiplied the total times


                                        14
15.5 cents per thousand to estimate basic life withholding, and compared the
result with the withholding amounts shown on the OPM Collection and Deposit
System Standard Form 2812. All Payroll Offices are below the 5 percent
reporting threshold.

To estimate agency contribution, we divided the estimated basic life withholding
by two and compared it to employer basic life contribution on the OPM
Collection and Deposit System Standard Form 2812. All Payroll Offices are
below the 5 percent reporting threshold.

Procedure. 6.d. Calculate the Option A, Option B, and Option C Life Insurance
coverage withholdings for the three pay periods selected by using detail payroll
reports used to reconcile the RITS reports in Step 1.

Auditor Action. We obtained the number of participating employees from DFAS
for each payroll data file. We totaled the individual withholding for Option A,
Option B, and Option C for each payroll data file and each date. For the pay
periods ending October 5, 2002; February 22, 2003; and March 8, 2003 the
overall difference for Option A was 0.00 percent. For the pay period ending
March 22, 2003, the overall difference for Option A was 0.03 percent. The
differences between the amounts reported to OPM by DFAS and the amounts we
totaled were significantly less than the reporting threshold of two percent in the
agreed-upon procedures for Option A.

For the pay periods ending October 5, 2002; February 22, 2003; and
March 8, 2003 the overall difference for Option B was 0.00 percent. For the pay
period ending March 22, 2003, the overall difference for Option B was
0.03 percent. The differences between the amounts reported to OPM by DFAS
and the amounts we totaled were significantly less than the reporting threshold of
two percent in the agreed-upon procedures for Option B.

For the pay periods ending October 5, 2002; February 22, 2003; and March 8,
2003 the overall difference for Option C was 0.00 percent. For the pay period
ending March 22, 2003, the overall difference for Option C was 0.10 percent.
The differences between the amounts DFAS reported to OPM and the amounts we
totaled were significantly less than the reporting threshold of two percent in the
agreed-upon procedures for Option C.




                                    15
Appendix A. Scope and Methodology
   We reviewed a sample of the data and documentation supporting $2.3 billion in
   payroll withholding reported each year by DFAS to OPM for DoD civilian
   personnel. The total annual payroll for about 685,000 DoD civilian employees is
   $ 24.5 billion. The 685,000 employees include 3 small payroll files that we did
   not review in accordance with the agreed-upon procedures. We selected for
   review the payroll files and supporting documentation for the payroll periods that
   ended October 5, 2002; February 22, 2003; March 8, 2003; and March 22, 2003.
   The DFAS payroll history database did not support the amount of DoD payroll
   withholding reported to OPM because the detailed data provided to us for the
   audit, when added together, did not agree with amounts reported to OPM. We
   made recommendations addressing this deficiency for FY 2000 in OIG DoD
   Report No. D-2001-109, issued April 27, 2001. We had previously made
   recommendations addressing this deficiency for FY 1999 in OIG DoD
   Report No. D-2000-156, issued June 29, 2000. During mediation, DFAS had
   offered an alternative procedure, referred to as “data warehousing” to maintain
   data for 6 years, when fully implemented. DFAS personnel stated they have
   implemented the data warehousing methodology and now have readily accessible
   data starting in 2000. We intend to test the system during the FY 2004 Audit of
   Payroll Withholding Data. The OIG DoD considers this an acceptable alternative
   because it supports U.S. Treasury record retention requirements.

   We reviewed data and documentation supporting gross pay and payroll
   withholdings that DFAS reported to OPM for the four pay periods ended
   October 5, 2002; February 22, 2003; March 8, 2003; and March 22, 2003. We
   also reviewed management controls over the reporting process. We compared the
   payroll data files with employee personnel forms for 236 randomly selected
   employees for gross pay, retirement, health insurance, and life insurance.

   We performed the agreed-upon procedures required by OMB, including
   verification of the payroll data file totals and recalculations of insurance and
   retirement withholdings.

   We did not perform an audit but performed additional procedures we considered
   necessary based on auditing standards from February 2003 through September
   2003.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the DCPS that processes payroll data, although we did rely
   on data produced by that system to conduct the audit. We determined data
   reliability by totaling the data provided to us from the system and comparing the
   totals to summary documents previously prepared from the system. Not
   evaluating the controls did not affect the results of the application of the agreed-
   upon procedures.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the Defense Financial Management high-risk area.



                                         16
Management Control Program Review
   DoD Directive 5010.38, “Management Control (MC) Program, “August 26, 1996,
   and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
   August 28, 1996, require DoD managers to implement a comprehensive system of
   management controls that provides reasonable assurance that programs are
   operating as intended and to evaluate the adequacy of the controls.

   Scope of Review of the Management Control Program. We reviewed the
   adequacy of DoD personnel offices’ management controls over official personnel
   files. Specifically, we reviewed DoD personnel offices’ management controls
   over accuracy of personnel elections for payroll withholding, transmission of
   payroll withholding data to DFAS, and retention of personnel payroll withholding
   election data in the official civilian personnel files. We reviewed the annual
   statements of assurance by the Military Departments and Defense agencies to
   determine whether they disclosed the inconsistency between official personnel
   files and DCPS payroll withholding data.

   Adequacy of Management Controls. We identified a management control
   weakness for DoD personnel offices as defined by DoD Instruction 5010.40.
   DoD personnel offices’ management controls for accuracy of personnel payroll
   withholding elections, timely transmission of personnel payroll withholding data
   to DFAS, and retention of personnel payroll withholding elections in official
   personnel files were not adequate. The inadequate controls did not ensure that
   civilian personnel were paid and withholdings made properly, that civilian
   personnel payroll withholding data were transmitted in a timely manner, and that
   documents and data supporting payroll withholding were retained in the official
   personnel files. We previously reported this management control weakness in
   OIG DoD Report No. D-2002-070, issued March 25, 2002. Recommendations
   1.a., 1.b., and 2. in that report have been implemented and will improve DoD
   personnel office payroll withholding procedures. We provided a copy of that
   report to the senior official responsible for management controls of the personnel
   offices of the Military Departments and Defense agencies for their management
   and use.

   Adequacy of Management’s Self-Evaluation. Self-evaluation by the Military
   Departments and Defense agencies did not identify the weakness because
   management did not identify the area as an assessable unit.




                                       17
Appendix B. Prior Coverage
      The Office of the Inspector General Department of Defense (OIG DoD) and the
      Air Force Audit Agency have conducted multiple reviews related to civilian
      payroll information, controls over the payroll process, and payroll expenses.
      Unrestricted OIG DoD reports are on the Internet at
      www.dodig.osd.mil/audit/reports. Unrestricted Air Force Audit Agency reports
      are on the Internet at www.afaa.hq.af.mil.

IG DoD

      IG DoD Report No. D-2003-060, “DoD Payroll Withholding Data for FY 2002,”
      March 18, 2003

      IG DoD Report No. D-2002-070, “DoD Payroll Withholding Data for FY 2000,”
      March 25, 2002

      IG DoD Report No. D-2001-109, “DoD Payroll Withholding Data for FY 2000,”
      April 27, 2001

      IG DoD Report No. D-2000-156, “DoD Payroll Withholding Data for FY 1999,”
      June 29, 2000

Air Force Audit Agency

      AFAA Report No. 01053014, “Civilian Pay FY 2000,” July 23, 2001

      AFAA Report No. 99054002, “Selected Civilian Pay Entitlement,” March 1, 2000




                                        18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Manpower and Reserve Affairs)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations, and
  Environment)
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, National Imagery and Mapping Agency
Director, DoD Education Activity
Director, Civilian Personnel Management Services




                                           19
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of Personnel Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Defense Finance and Accounting Service
Comments




                      21
Final Report
 Reference




Revised
Page 4




               22
23
Team Members
The Defense Financial Auditing Service, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Paul J. Granetto
Richard Bird
David F. Vincent
Thomas J. Winter
Joseph A. Powell
Jonathan M. Rabben
Demetria Trahan
Joseph Bilock
Mark Heim
